<html>
<title> - LEGISLATION TO IMPLEMENT THE POPS, PIC, AND LRTAP POPS AGREEMENTS HEARING before the SUBCOMMITTEE ON ENVIRONMENT AND HAZARDOUS MATERIALS of the COMMITTEE ON ENERGY AND COMMERCE HOUSE OF REPRESENTATIVES ONE HUNDRED NINTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                      LEGISLATION TO IMPLEMENT THE 
                        POPS, PIC, AND LRTAP POPS 
                               AGREEMENTS

                                HEARING

                               before the

                    SUBCOMMITTEE ON ENVIRONMENT AND
                          HAZARDOUS MATERIALS

                                 of the

                        COMMITTEE ON ENERGY AND
                                COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 2, 2006

                               __________

                           Serial No. 109-63

                               __________

      Printed for the use of the Committee on Energy and Commerce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                               __________

                     U.S. GOVERNMENT PRINTING OFFICE
                             WASHINGTON: 2006        

27-145PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001


(Text Not Available In WAIS Format)

</pre></body></html>
